HHS/OIG, Audit -"Iowa Medicaid Payments for Skilled Professional Medical Personnel,"(A-07-05-03062)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Iowa Medicaid Payments for Skilled Professional
Medical Personnel," (A-07-05-03062)
April 11, 2006
Complete
Text of Report is available in PDF format (1.38 mb).  Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if the Department of Human Services (State agency) properly
claimed payments for skilled professional medical personnel at the enhanced Federal funding
rate for FY 2003.  The State agency did not properly claim payments for skilled
professional medical personnel at the enhanced Federal funding rate for FY 2003.  Specifically,
the State agency claimed costs for personnel who did not meet the employer‑employee
relationship requirements.  The State agency also improperly claimed costs and activities
included in the University's and a school district's payment vouchers.
We recommended the State agency:  (1) refund $671,759to the Federal Government; (2)
ensure that direct medical services are claimed at the Federal Medical Assistance Percentage
rate and not the enhanced administrative rate; (3) develop and implement policies and procedures
to more closely monitor payments for skilled professional medical personnel; (4) provide
training concerning how to properly complete the time studies to all staff of participating
agencies; and (5) review FY 2003 payment vouchers submitted by all participating entities
to ensure that activities included comply with Federal requirements, and remit the Federal
share of any overpayments to the Federal Government.  The State agency did not fully
concur with most of our findings and did not concur with three of the four recommendations.  The
State agency stated that it "believes that [we] reviewed activities that took place
in FFY 2003 in light of the more detailed federal guidance that went into effect AFTER the
audit period."